              Office of Inspector General

              Audit Report




      RCRA CORRECTIVE ACTION



RCRA Corrective Action Focuses on Interim Priorities --
    Better Integration with Final Goals Needed
                       2000-P-0028
                    September 29, 2000
Inspector General Division(s)   Headquarters Audit Division
 Conducting the Audit           Washington, DC
    Contributors                  Christina Lovingood
                                   Sheila May
                                   Mike Prater
Region(s) covered               Regions 4, 5, and 6
Program Office(s) Involved      Office of Solid Waste and Emergency Response:
                                 Office of Solid Waste
                                Office of Enforcement and Compliance Assurance:
                                 Office of Site Remediation Enforcement
MEMORANDUM
SUBJECT:	      RCRA Corrective Action Focuses on Interim Priorities --
               Better Integration with Final Goals Needed
               Audit Report No. 2000-P-0028
FROM:          Mike Prater, Audit Manager
               Headquarters Audit Division
TO:            Timothy Fields, Jr.
               Assistant Administrator
                 for Solid Waste and Emergency Response

               Steven A. Herman
               Assistant Administrator
                 for Enforcement and Compliance Assurance

        Attached is the subject audit report for our review of RCRA corrective action permits and
orders used to achieve environmental indicators. We issued our draft report on August 10, 2000.
The draft was entitled “RCRA Corrective Action Focuses on Interim Results, Broader
Implementation of GPRA Needed.” The response to the draft is included in Appendix 7 of the
attached report, which contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. This audit report represents the
opinion of the OIG and the findings contained in this audit report do not necessarily represent the
final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established audit resolution procedures. Accordingly, the findings
described in the audit report are not binding upon EPA in any enforcement proceeding brought by
EPA or the Department of Justice.

       We would appreciate a response to the report within 90 days of the report date. The
response should include an action plan with milestone dates for corrective actions planned but not
completed. Should you or your staffs have any questions, please contact Christina (Tina)
Lovingood or Sheila May of the Headquarters Audit Division on (202) 260-5105 and
(202) 260-5115, respectively; or Carol Jacobson, OIG Audit Liaison, on (202) 260-7604.

Attachment
            EXECUTIVE SUMMARY


INTRODUCTION
    The Resource Conservation and Recovery Act (RCRA)
                 Corrective Action (CA) Program’s goal is to minimize the
                 federal cleanup burden by having current operating facilities
                 clean up their hazardous waste contamination, thereby
                 preventing the RCRA facilities that pose the greatest risk
                 from becoming Superfund sites. Past and present activities
                 at RCRA facilities have sometimes resulted in releases of
                 hazardous substances into soil, groundwater, surface water,
                 and air. In the 1984 Hazardous and Solid Waste
                 Amendments (HSWA) to RCRA, Congress directed EPA to
                 require CA for all releases of hazardous waste and
                 hazardous constituents at facilities seeking RCRA permits.
                 Although the CA program has been in effect since 1984,
                 concerns have been raised that companies are not cleaning
                 up their facilities quickly enough, therefore posing risks to
                 public health and the environment.

                 As part of the process to formulate EPA goals to achieve
                 outcomes under the Government Performance and Results
                 Act (GPRA), CA officials identified 1,712 high priority
                 baseline facilities needing CA as of April 1999. (As of
                 January 2000, the baseline consisted of 1,714 facilities.
                 However, we sampled from the universe of 1,712 facilities
                 and will be referring to the 1,712 facilities throughout this
                 report.) The current focus of the CA program is to achieve
                 two environmental indicators (EI) by 2005: (1) current
                 human exposures under control and (2) migration of
                 contaminated groundwater under control. These EI are
                 intermediate outcomes of progress made toward the
                 ultimate EPA GPRA goal of restoration. To initiate
                 progress toward the achievement of EI, the Agency requires
                 CA through permits and orders that should include
                 schedules for the CA. In February 1999, the then Acting
                 Assistant Administrator for the Office of Solid Waste and
                 Emergency response (OSWER) emphasized the need to
                 achieve the newly established GPRA goal and made CA his
                 highest priority for the RCRA program.


                                                        Report No. 2000-P-0028
OBJECTIVES          Our objectives were to answer the following questions.

                    1. Could the overall implementation of GPRA for the CA
                    program be improved?

                    2. Have the high priority facilities initiated CA or have
                    states or EPA compelled CA in permits, orders, etc., and
                    are the actions effective (have the EI been achieved)?

                    3. Do states encounter obstacles to effective CA? Are
                    those obstacles different from EPA’s?

                    4. Have states or EPA planned for sufficient resources to
                    achieve the GPRA goal of 2005 and the intermediate goals?

                    5. Is EPA receiving timely and accurate information
                    necessary for monitoring progress made toward the GPRA
                    goal?


RESULTS IN BRIEF
   The CA program currently focuses on interim environmental
                    results, but broader implementation of GPRA is necessary.
                    By 2005, the CA program plans to have current human
                    exposures and contaminated groundwater migration under
                    control at 95% and 70%, respectively, of the 1,712 high
                    priority baseline facilities. To achieve the interim goals,
                    EPA has issued guidance on how to support the
                    accomplishment of the EI, provided training for CA officials
                    to emphasize a more flexible approach in the cleanup
                    process, and monitors progress made toward achieving the
                    EI. Although the EI are good interim measures of progress,
                    the ultimate GPRA goal of the CA program is to restore
                    sites to uses appropriate for surrounding communities. CA
                    officials interpret restore in this context to mean that
                    cleanup goals for final remedies have been achieved.

                    The CA program could more effectively achieve GPRA
                    outcomes by: providing a clearer definition of restoration in
                    the context of site cleanup, developing an EI for final
                    remedies that addresses ecological protection, emphasizing
                    the need for an effective reference and rationale for each EI
                    determination, making the EI documentation available to

                              ii                           Report No. 2000-P-0028
other regulators and the public, and providing guidance on
how the EI determinations should be reevaluated.

The Resource Conservation and Recovery Act Information
System (RCRIS) indicates that CA began at a majority of
the baseline facilities when EPA required (imposed) the
RCRA facility investigation (RFI) in permits or orders. (For
the three regions we visited, we reviewed the
documentation supporting the RFI imposition. Even though
the dates did not always match, the documentation generally
supported the fact that the RFI had been imposed.) The
baseline facilities are a list of hazardous waste facilities that
will be used to measure the environmental progress of the
CA program. Where CA has not begun, Agency and
authorized state officials are developing site-specific plans
to do so. However, some regional and state officials are
concerned that several obstacles may prevent EPA from
achieving the EI, and potential risk to human health and the
environment may continue to exist. Early actions to
mitigate the obstacles that EPA can control will be key in
achieving the EI by 2005.

CA officials believe they have sufficient resources to
address the CA baseline sites, but state resources appear to
be limited. In addition, EPA has not specifically aligned its
existing grants allocation formula with its GPRA initiatives.
Therefore, authorized states that need the resources may
not be receiving them. Also, because the resources may not
be distributed properly, EPA may not be able to rely on the
states’ ability to achieve the EI, and thus meet the GPRA
cleanup goal of restoration for CA. However, CA officials
are expecting an increase in grant funding beginning in fiscal
year 2001. This new funding is planned to be allocated
according to the number of baseline facilities.



EPA needs to closely monitor the GPRA progress reported
in RCRIS because the system does not indicate the date(s)
when EI determinations are entered to reflect current and
complete EI determinations. Also, the dates EI were
accomplished were not always accurately reflected in
RCRIS, nor was the EI documentation always available.
Because EPA cannot determine the timeliness of the data

           iii                            Report No. 2000-P-0028
                   reported, and because of the inaccurate or unsupported EI
                   information in RCRIS, EPA or CA officials may not be able
                   to rely on RCRIS for monitoring progress toward the
                   GPRA goal.


RECOMMENDATIONS	   We recommended that the Assistant Administrator for Solid
                   Waste and Emergency Response initiate actions to:
                   • clarify the GPRA goal of restoration, develop an EI for
                   final remedies that addresses ecological protection;
                   • share EI documentation with regulators and the public;
                   • clearly document an effective EI reference and rationale;
                   • develop guidance for periodically reevaluating EI;
                   • minimize obstacles to achieving the EI goal for 2005;
                   • address resource concerns by routinely evaluating
                   whether states have sufficient resources for implementing
                   the CA program; and,
                   • improve the reporting of data into RCRIS.


AGENCY RESPONSE	   We received the Agency’s response on September 28, 2000,
                   to our draft report. The OSWER officials agreed with all of
                   our recommendations.




                             iv                          Report No. 2000-P-0028
           ABBREVIATIONS

BIF     Boiler and Industrial Furnace
BYP     Beginning-of-the-Year Plan
CA      Corrective Action
CAWL    Corrective Action Workload
DoD     Department of Defense
DoE     Department of Energy
EI      Environmental Indicator
EPA     Environmental Protection Agency
FMFIA   Federal Managers’ Financial Integrity Act
GAO     General Accounting Office
GPRA    Government Performance and Results Act
HSWA    Hazardous and Solid Waste Amendments
NCAPS   National Corrective Action Priority System
NRC     Nuclear Regulatory Commission
OECA    Office of Enforcement and Compliance Assurance
OIG     Office of Inspector General
OSWER   Office of Solid Waste and Emergency Response
RCRA    Resource Conservation and Recovery Act
RCRIS   Resource Conservation and Recovery Act Information System
RFI     RCRA Facility Investigation
SWMU    Solid Waste Management Unit




                                  v                      Report No. 2000-P-0028
THIS   PAGE   INTENTIONALLY   LEFT    BLANK





                    vi           Report No. 2000-P-0028
                             TABLE OF CONTENTS


                                                                                                                            Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v


CHAPTER 1: INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CHAPTER 2: CA FOCUSES ON INTERIM ENVIRONMENTAL RESULTS; 

     BROADER IMPLEMENTATION OF GPRA NEEDED . . . . . . . . . . . . . . . . . . . . . . . . 9

     EI ARE GOOD MEASURES OF THE STATE OF THE ENVIRONMENT . . . . . . . . . 9

     IMPROVED EI DOCUMENTATION COULD STRENGTHEN CA CREDIBILITY . 12

     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


CHAPTER 3: CA COMPELLED IN PERMITS OR ORDERS AT MOST SITES, BUT

     CONCERNS FOR ACHIEVING THE GPRA GOAL REMAIN . . . . . . . . . . . . . . . . .                                             21

     CA INITIATED AT MOST BASELINE FACILITIES . . . . . . . . . . . . . . . . . . . . . . . .                                  21

     RCRIS INDICATES THAT CA PROGRAM CURRENTLY ON TRACK TO

           ACCOMPLISH THE EI; SOME ENVIRONMENTAL ACTIONS TAKEN . .                                                             22

     OBSTACLES MAY PREVENT ACCOMPLISHMENT OF THE EI . . . . . . . . . . . . .                                                  24

     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             29


CHAPTER 4: EPA OFFICIALS BELIEVE RESOURCES ARE GENERALLY SUFFICIENT,

     BUT STATE RESOURCES MAY BE LIMITED . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

     SOME STATE RESOURCES MAY BE LIMITED . . . . . . . . . . . . . . . . . . . . . . . . . . 31

     OUTDATED GRANTS ALLOCATION FORMULA MAY BE CAUSING

           RESOURCES TO BE MISALLOCATED . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36


CHAPTER 5: CLOSER MONITORING OF GPRA PROGRESS NEEDED . . . . . . . . . . . . .                                                 39

     RCRIS DOES NOT INDICATE WHEN EI ENTERED; TIMELINESS

           UNDETERMINABLE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                39

     EI INFORMATION IN RCRIS NOT ALWAYS RELIABLE . . . . . . . . . . . . . . . . . . .                                         40

     RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             42



                                                                                                      Report No. 2000-P-0028
APPENDICES
     Appendix 1 -   Scope, Methodology and Prior Audit Coverage . . . . . . . . . . . . . . . . . . .
45

     Appendix 2 -   Examples of Acceptable Reference and Rationale . . . . . . . . . . . . . . . . . . 50

     Appendix 3 -   Examples of Unacceptable Reference and Rationale. . . . . . . . . . . . . . . . .63

     Appendix 4 -   Accuracy of Region 4 Positive EI Determinations . . . . . . . . . . . . . . . . . . 79

     Appendix 5 -   Accuracy of Region 5 Positive EI Determinations . . . . . . . . . . . . . . . . . . 83

     Appendix 6 -   Accuracy of Region 6 Positive EI Determinations . . . . . . . . . . . . . . . . . . 85

     Appendix 7 -   Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

87

     Appendix 8 -   Distribution List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 

89





                                                                                                  Report No. 2000-P-0028
              CHAPTER 1

              INTRODUCTION



               The goal of the Resource Conservation and Recovery Act
               (RCRA) Corrective Action (CA) Program is to minimize
               the federal cleanup burden by requiring current operating
               facilities to clean up their hazardous waste contamination,
               thereby preventing the RCRA facilities that pose the
               greatest risk from becoming Superfund sites. The
               companies that perform cleanups under the CA program
               include, among others, chemical manufacturers and waste
               disposal companies. Past and present activities at RCRA
               facilities have sometimes resulted in releases of hazardous
               substances into soil, groundwater, surface water, and air.
               As part of the process to formulate EPA goals to achieve
               outcomes under the Government Performance and Results
               Act (GPRA), RCRA officials identified 1,712 high priority
               baseline facilities that need CA. The current focus of the
               CA program is to achieve two environmental indicators
               (EI) at the 1,712 baseline facilities by 2005: (1) current
               human exposures under control and (2) migration of
               contaminated groundwater under control. The EI are
               interim outcomes of progress toward the ultimate GPRA
               goal of restoring the baseline facilities. To initiate progress
               toward the achievement of the EI, EPA or authorized
               states can require CA through permits or orders which
               should include schedules for CA.

OBJECTIVES	    In response to a request from the EPA Office of
               Enforcement and Compliance Assurance (OECA), we
               performed this review to determine whether the EI are
               being achieved timely.

               Specifically, we sought to answer to answer the following
               questions.

               1. Could the overall implementation of GPRA for the CA
               program be improved?



                         1                             Report No. 2000-P-0028
                             2. Have the high priority facilities initiated CA or have
                             states or EPA compelled CA in permits, orders, etc., and
                             are the actions effective (have the environmental indicators
                             been achieved)?

                             3. Do states encounter obstacles to effective CA? Are
                             those obstacles different from EPA’s?

                             4. Have states or EPA planned for sufficient resources to
                             achieve the GPRA goal of 2005 and the interim goals?

                             5. Is EPA receiving timely and accurate information
                             necessary for monitoring progress made toward the GPRA
                             goal?

                             We developed the objectives based on discussions with
                             OECA and Office of Solid Waste and Emergency
                             Response (OSWER) officials.

BACKGROUND


Purpose of the CA Program
   In the 1984 Hazardous and Solid Waste Amendments
                             (HSWA) to RCRA, Congress directed EPA to require CA
                             for all releases of hazardous waste and hazardous
                             constituents from solid waste management units (SWMU)
                             at facilities seeking RCRA permits. Congress also
                             expanded EPA’s authority to address cleanup at permitted
                             RCRA hazardous waste management facilities for releases
                             beyond facility boundaries. Although the CA program has
                             been in effect since 1984, concerns have been raised that
                             companies are not cleaning up their facilities quickly
                             enough and that properties remain contaminated, posing
                             risks to public health and the environment. Since fiscal
                             year (FY) 1996, EPA has provided about $16 million
                             annually in grants to states and tribes for the oversight of
                             cleanup at RCRA facilities. EPA has also supplemented
                             this figure with an additional $8.8 million annually bringing
                             the total amount of grant funding (for RCRA cleanups) to
                             states and tribes for the past four years (since FY96) to
                             about $100 million.




                                       2                            Report No. 2000-P-0028
EPA’s Early Attempts to
Speed Up CA, GPRA, and
the Development of the CA
EI

RCRA Implementation Study          RCRA conducted the RCRA Implementation Study and
and the Stabilization Initiative   issued a report in July 1990. The report recommended that
                                   the RCRA CA program use more frequent interim actions
                                   to achieve near term environmental results at facilities with
                                   the most serious problems. While final cleanup was the
                                   long term goal for the CA program, the study emphasized
                                   the importance of controlling releases and stabilizing sites
                                   to prevent further spread of contamination as the first
                                   phase of CA. Stabilization means that the CA program
                                   would take whatever action was necessary at as many
                                   facilities as possible to address actual exposures (imminent
                                   risks) and to prevent the further spread of contamination.

                                   In 1991, the Agency established the Stabilization Initiative
                                   as one of the primary objectives for the CA program. The
                                   goal of the Stabilization Initiative was to increase the rate
                                   of CA by focusing on near term activities to control or
                                   abate threats to human health and the environment and to
                                   prevent or minimize the further spread of contamination.
                                   Controlling exposures or the migration of a release may
                                   have stabilized facilities, but this stabilization would not
                                   necessarily mean that facilities were completely cleaned up.
                                   Stabilization actions were intended to be a component of,
                                   or at lease consistent with final remedies.

GPRA Requirements and the          In 1993, Congress passed GPRA, which required the
Goal for CA                        federal government to establish measurable and
                                   quantitative goals and objectives to clearly define outputs
                                   or outcomes. To achieve its mission, EPA’s Strategic Plan
                                   lists 10 goals. The restoration of contaminated waste sites
                                   is addressed within Goal 5 and applies to EPA’s cleanup
                                   programs including Superfund, RCRA, and the
                                   Underground Storage Tank Program. Goal 5 stresses the
                                   need for continued work to clean up polluted sites,
                                   restoring them to uses appropriate for surrounding
                                   communities and responding to and preventing waste
                                   related-industrial accidents. Improper hazardous waste

                                             3                            Report No. 2000-P-0028
                          disposal could result in the contamination of groundwater
                          and can be harmful to people who live in nearby
                          communities. EPA’s effort for all of its cleanup programs
                          to achieve Goal 5 is centered on protecting human health
                          and the environment by applying the fastest, most effective
                          waste management and cleanup methods available.
                          However, EPA has emphasized a flexible, facility-specific
                          approach to RCRA CA which is needed to account for the
                          variety of CA facilities.

                          RCRA CA officials believe the ultimate goal for CA is to
                          achieve final remedies appropriate for reasonably
                          anticipated future land use. Officials also believe that the
                          term restoration may not be appropriate for the RCRA CA
                          program because many RCRA facilities will be operating
                          waste management facilities that will continue into the
                          foreseeable future. CA officials plan to work with
                          OSWER’s and OECA’s Strategic Plan liaisons to examine
                          the term restoration as it applies to CA. For the purpose
                          of this report, we will continue to use the term restoration
                          as the ultimate goal for the CA program because it is not
                          the role of the OIG to define restoration for any of
                          OSWER’s programs.

Early Development of EI   Stakeholders continued to raise concerns that the CA
                          program focused on the processes of cleaning up sites
                          instead of environmental outcomes. Therefore, because of
                          GPRA requirements and based on EPA’s work on the
                          Stabilization Initiative, in 1994, EPA moved the CA
                          program from focusing on steps in the cleanup process to
                          the achievement of environmental outcomes, or the EI.
                          The RCRA CA program developed two specific EI: (1)
                          human exposures controlled determination, and (2)
                          groundwater releases controlled determination. The
                          human exposures controlled EI is attained when there is no
                          unacceptable risk to humans due to releases of
                          contaminants at or from a facility subject to CA. The
                          groundwater releases controlled EI is attained when the
                          migration of groundwater contamination at or from a
                          facility is controlled across its designated boundaries.
                          These EI were not tied to specific program activities or
                          paperwork deliverables. To support the EI, EPA or state
                          program managers were to prepare a document signed by a
                          Branch Chief or above and enter it into the administrative

                                   4                             Report No. 2000-P-0028
                         file for the facility. The document should state that human
                         exposures or groundwater releases controlled
                         determination had been made, or that a previous
                         determination was no longer applicable, and provide a
                         basis for the determination.

Current EI               In February 1999, the then Acting Assistant Administrator
                         for OSWER emphasized the need to achieve GPRA cleanup
                         Goal 5, and made CA his highest priority for the RCRA
                         program. Concurrently, EPA issued new guidance on EI to
                         help focus program activities on observable, near- term
                         improvements in environmental conditions (outcomes) that
                         were site-wide. The priority and guidance de-emphasized
                         procedural, document-based, or partial-facility milestones of
                         program progress, such as the RCRA facility investigation
                         report (RFI). The RFI (part of the CA process which is
                         contained in RCRIS) is an assessment of potential releases
                         of hazardous waste and can be required from EPA or an
                         authorized state either through a permit or an order.

                         EPA defined two new EI and created forms to document
                         the accomplishment of EI. The two EI are: (1) current
                         human exposures under control and (2) migration of
                         contaminated groundwater under control. When EPA or
                         authorized state officials complete an EI evaluation, they are
                         to enter the results in the Resource Conservation and
                         Recovery Act Information System (RCRIS). Because EI
                         focus on results, they serve as outcome performance
                         measures for remedial activities. These EI are also designed
                         to aid RCRA site decision makers by clearly showing where
                         risk reduction is necessary, thereby helping regulators and
                         facility owners/operators reach an earlier agreement on
                         measures needed to stabilize a facility. RCRA CA officials
                         believe that the current EI demonstrate EPA’s, “flexibility in
                         working with the state partners rather than pushing states
                         directly toward the ultimate goal of final cleanup.”

Development of CA GPRA   EPA developed the GPRA baseline of hazardous waste
Baseline                 facilities to meet the CA program’s GPRA goal. This list of
                         facilities will be used to measure the environmental progress
                         of the CA program. The baseline was developed from the
                         National RCRA CA Priorities Initiative and each facility
                         was given an initial ranking with input from the states.
                         Most facilities were ranked based on information in the

                                   5                             Report No. 2000-P-0028
                       RCRA Facility Assessment report. The ranking tool took
                       into account (1) type and design of waste management unit,
                       (2) volume of waste, (3) waste toxicity, and (4) likelihood
                       of releases to the environment. Other factors included (1)
                       depth to groundwater, (2) groundwater use, (3) distance to
                       surface water, (4) nearest drinking water intake, (5) nearest
                       sensitive environment, and (6) nearby pollution.

                       The baseline is comprised of facilities in the CA workload
                       universe (a list of facilities that were actively seeking a
                       permit to operate as a treatment, storage, or disposal facility
                       or sites that were undergoing cleanup) which have, or had
                       at one time, a high National CA Priority System (NCAPS)
                       ranking. Optional facilities were added to the baseline for
                       the purpose of measuring program progress and may have
                       included facilities that were not ranked high at the time the
                       baseline was created, but were identified as high NCAPS in
                       the past. Officials believed these facilities best show the
                       improvement due to CA activities and should not be left out
                       of the GPRA baseline. The individually named high-priority
                       baseline facilities are expected to remain on the baseline
                       through 2005 and will not change unless absolutely
                       necessary. EPA officials allowed states to add additional
                       facilities, up to 15% of their total GPRA baseline, as
                       another example of EPA’s flexibility with respect to
                       recognizing state interests and EPA’s longstanding policy of
                       partnering with states to address RCRA CA.” The added
                       facilities were to be priorities for the states and regions due
                       to significant reasons, such as environmental justice,
                       brownfields, etc. The CA GPRA baseline was finalized and
                       published on July 8, 1999, as part of EPA’s RCRA Cleanup
                       Reforms Initiative.

RCRA Cleanup Reforms   In July 1999, the CA program focused on cleanup reforms,
                       which are designed to achieve faster, more flexible cleanups
                       at RCRA facilities that treat, store, or dispose of hazardous
                       waste and have potential environmental contamination. The
                       RCRA Cleanup Reforms are EPA’s comprehensive effort to
                       address the key impediments to cleanups, maximize
                       program flexibility, and spur progress toward a set of
                       ambitious national cleanup goals. The national cleanup
                       goals focus on the 1,712 RCRA baseline facilities that
                       warrant attention over the next several years because of the


                                  6                             Report No. 2000-P-0028
              potential for unacceptable exposure to pollutants and/or for
              groundwater contamination.

              To speed cleanup, EPA also developed alternatives to help
              facilitate a results-based approach so that the EI can be
              achieved sooner than if the traditional CA process had been
              used. For example, EPA has recently begun to enter into
              voluntary agreements with facilities. Rather than going
              through what can be a multi-year process of obtaining a
              permit and then beginning cleanup, EPA is encouraging
              facilities to perform cleanup with minimal oversight. With
              signed voluntary agreements, facilities can begin cleanup
              more promptly than they would have if they had obtained a
              permit. EPA retains the right to order CA, should the
              facilities become unwilling or unable to complete the CA.
              Another alternative to the CA process has been States’ use
              of state Superfund-like authorities to clean up RCRA
              facilities.

SCOPE AND     We conducted this review from August 1999 to May 2000.
METHODOLOGY   To accomplish our objectives, we conducted fieldwork in
              Headquarters OECA and OSWER and in Regions 4, 5, and
              6. During the accomplishment of our objectives, we
              considered the overall implementation of GPRA for the CA
              program. The examination of the overall implementation
              included: the GPRA goal, the EI, obstacles to successful
              achievement of the EI, source documentation, RCRIS data
              accuracy (for the EI), resources allocated to achieve the EI,
              and management oversight.

              We performed our review in accordance with the U.S.
              General Accounting Office (GAO) Government Auditing
              Standards, issued by the Comptroller General of the United
              States (1994 Revision.) Appendix 1 presents additional
              information on the scope, methodology, and prior audit
              coverage.




                        7                             Report No. 2000-P-0028
THIS   PAGE   INTENTIONALLY   LEFT     BLANK            





                    8                Report No. 2000-P-0028
                  CHAPTER 2

    CA FOCUSES ON INTERIM ENVIRONMENTAL RESULTS;
       BROADER IMPLEMENTATION OF GPRA NEEDED

                    By 2005, the CA program plans to have current human
                    exposures and contaminated groundwater migration under
                    control at 95% and 70%, respectively, of the 1,712 high
                    priority baseline facilities. Accomplishing these EI is the
                    highest priority for the RCRA program. Overall, the CA
                    program has underscored this priority by: (1) providing
                    guidance on how to support the accomplishment of the EI ,
                    (2) conducting training in each region and its plans to adapt
                    the training to be available to all stakeholders via interactive
                    Internet, (3) following up on the training with regional and
                    state visits, and (4) encouraging flexibility in the cleanup
                    process through its cleanup reforms. In addition,
                    Headquarters officials are closely monitoring continued
                    progress toward the accomplishment of the indicators.

                    While the EI are good interim measures of progress, the
                    ultimate GPRA goal of the CA program is, “Restoration of
                    Contaminated Waste Sites...to uses appropriate for the
                    surrounding communities.” The CA program could more
                    effectively achieve GPRA outcomes by: providing a clearer
                    definition of restoration to stakeholders, developing an EI
                    for final remedies that addresses ecological protection,
                    emphasizing the need for an effective reference and
                    rationale for each EI determination, making the EI
                    documentation available to other regulators and the public,
                    and providing guidance on how often the EI determinations
                    should be reevaluated. Chapters 3 through 5 will also
                    discuss ways GPRA could be more effectively implemented.

EI ARE GOOD         CA officials have developed two good interim EI that
MEASURES OF THE     measure the current state of the environment at RCRA
STATE OF THE        facilities: (1) current human exposures under control and (2)
ENVIRONMENT         current contaminated groundwater migration under control.
                    Unlike other EPA programs which, have performance
                    measures that are process-oriented and measure the
                    completion of an output or step in a process, CA measures

                               9                              Report No. 2000-P-0028
                        environmental results or status. In fact, the U.S. General
                        Accounting Office (GAO) credits the CA program for using
                        outcome performance measures where other EPA programs
                        use output measures. Also, Congressional officials expect
                        other EPA programs, such as the Superfund program,
                        which uses process-oriented measures, to emulate the CA
                        program by implementing similar risk-based EI.

                        The CA program has been working since 1994 to develop
                        EI that are designed to measure the environmental status of
                        facilities undergoing CA. Through the use of the EI - -
                        human exposures controlled and groundwater releases
                        controlled - - the program could report on actual
                        environmental accomplishments of cleanup activities rather
                        than focusing strictly on process events. In February 1999,
                        EPA refined its definition of the environmental indicators
                        and created new forms to document achievement of the
                        indicators.

                        To help achieve CA goals, CA officials conducted a series
                        of training events called the RCRA CA Workshop to
                        emphasize a more flexible cleanup approach that will allow
                        timely completion of the EI and to instruct regional, state,
                        and responsible party officials on how to use the new EI
                        guidance to evaluate and document whether or not current
                        human exposures and migration of contaminated
                        groundwater are under control. To underscore the training,
                        Headquarters officials are also visiting regions and states to
                        emphasize the importance of achieving the EI. CA officials
                        will also place a priority on authorizing additional states to
                        implement CA or enhancing work sharing arrangements
                        with states that are not authorized for the program. Finally,
                        Headquarters and regional officials are emphasizing that the
                        EI are only an interim step toward the ultimate GPRA goal
                        of “restoring” each site.

Goal of “Restoration”   While CA program officials are emphasizing that the two EI
Needs to Be Clarified   are only interim steps toward the goal of restoration, they
                        (and Superfund officials) could improve implementation of
                        GPRA by clarifying the ultimate goal of “Restoration.”
                        While we commend Agency officials for their efforts to
                        achieve the interim EI, and their emphasis on final cleanup,
                        we are concerned that the GPRA goal of “restoration of
                        contaminated sites” may not be clear. Restoration could

                                  10                            Report No. 2000-P-0028
                            mean (1) cleanup so that unrestricted access and unlimited
                            use is allowed, (2) limiting access with institutional controls,
                            (3) completion of work specified in an order or agreement,
                            or (4) redevelopment of property or reuse of land for
                            beneficial purposes, such as a golf course. Without a clear
                            definition of what restoration means or an indicator to mark
                            restoration, and the emphasis on the interim step of EI
                            accomplishment, some stakeholders may be interpreting the
                            message that the final remedy is not the ultimate goal. For
                            example, to accomplish the EI at one facility, officials in one
                            region suspended review of corrective measures studies or
                            other reports to further the cleanup process at another
                            facility. As another example, when a RCRA facility
                            investigation would be performed, the investigation may be
                            suspended and resources directed to determine whether
                            humans were exposed at the facility so that the EI could be
                            accomplished. The short-term goal of achieving the EI was
                            the focus instead of restoration.

                            By clarifying and emphasizing the ultimate goal of
                            restoration, EPA would help motivate facility owners and
                            operators (or responsible parties) to complete cleanup by
                            knowing when they will be finished with the CA or cleanup
                            process.

Addition of An Ecological   In addition to clearly defining restoration, we believe that an
Environmental Indicator     ecological environmental indicator is needed to more fully
                            balance and measure progress toward the ultimate goal of
                            restoring RCRA facilities. An ecological environmental
                            indicator is a measure that characterizes an ecosystem or
                            one of its critical elements. The officials believed it was
                            ironic that the current interim EI were called
                            “environmental” indicators when the environment (other
                            than groundwater or surface water affected by
                            groundwater) was not considered. For example, the
                            guidance does not address effects on non-human receptors
                            that might be affected by contamination, but does indicate
                            that an environmental indicator for these receptors will be
                            developed in the future. Regional officials believed that the
                            reason ecological environmental indicators were not
                            considered was because ecological indicators take too much
                            time to address.



                                      11                             Report No. 2000-P-0028
                          EPA managers agreed that an ecological indicator is
                          needed, and have created a task force to discuss the
                          development of an ecological indicator. However, the task
                          force has no firm plans to develop the ecological indicator
                          at this time. We recognize the complexity of the
                          development of an ecological indicator, and do not intend
                          that its development detract from the achievement of the
                          current EI by 2005. However, we agree that an ecological
                          indicator needs to be developed to more fully balance
                          progress toward the goal of restoration.

IMPROVED EI               To complement improvements to the GPRA goal of
DOCUMENTATION             restoration and the EI, CA officials could strengthen the
COULD STRENGTHEN          credibility of the EI determinations. RCRA officials could:
CA CREDIBILITY            (1) clarify the EI guidance and make the EI documentation
                          available to regulators and the public, (2) emphasize the
                          need for an effective reference and rationale for each
                          environmental indicator determination, and (3) emphasize in
                          new guidance, training, and routine interactions that EI
                          determinations are meant to reflect current conditions. By
                          improving the EI documentation and sharing it, EPA
                          officials will be held more accountable for the decisions that
                          are made and the documentation may be more consistent
                          nationwide. EPA officials will also be able to provide
                          congressional customers and other stakeholders with more
                          reliable support for the environmental results it has achieved
                          while working to restore sites.

Share EI Determinations   Our first concern about the EI documentation is that it was
Internally and Publicly   not always available because state officials were reluctant to
                          share the documentation. Some officials were
                          uncomfortable with their understanding of the guidance and
                          not all of the state officials attended the CA workshop
                          training. As a result, Agency officials may not be able to
                          account for all of the environmental results they have
                          achieved while working toward the GPRA goal, and EI
                          documentation may not be consistent. By sharing the EI
                          documentation internally, EPA and authorized state officials
                          could benefit from each other’s technical expertise. Also,
                          sharing the EI forms publicly could encourage more activity
                          by regulators and industry officials and would also be
                          consistent with the Agency’s efforts to enhance public
                          access to EPA documents to which the public is entitled.


                                    12                            Report No. 2000-P-0028
EI documentation was not always available because state
project managers were reluctant to share the information
since they were not comfortable with how the EI forms
should be completed, or they were using interpretations not
in the guidance. One of the reasons state managers were
reluctant to provide the EI documentation was because of a
lack of training. Some state officials did not have the
opportunity to attend the CA workshop training. EPA was
able to pay for three officials from each state to attend the
course.

Training notwithstanding, some state project managers are
having difficulty understanding EPA’s definitions and do not
understand the CA guidance. As a result, state officials are
completing the forms inconsistently or using interpretations
not in the guidance. For example, some state officials are
uncomfortable in making “current” determinations. When
EI determinations are made, they should remain in RCRIS
only as long as they remain true (i.e., the determinations
must be changed in RCRIS when the regulatory authorities
become aware of contrary information). Other state
officials have indicated they will only complete the EI
documentation when the determination for the
environmental indicator is final.

Since February 1999, the Agency has been stressing the
importance of completing the EI. Because this commitment
is relatively new, and because EPA officials recognize that
the learning curve for fully understanding and completing
the EI documentation is high, Headquarters officials are not
asking state officials to go back and complete
documentation for the EI that were accomplished prior to
the guidance in February 1999. However, Headquarters
officials do expect states to complete the EI documentation
when they reevaluate each EI determination.

To help state officials better learn how to complete the EI
evaluation forms and understand the guidance, regional staff
are clarifying guidance during visits with state officials.
Regional officials plan to use these visits as an educational
opportunity so that regions and states consistently complete
EI documentation. In addition, CA officials held an EI
Forum to discuss in detail EI guidance. EPA could help
clarify the EI guidance by developing a list of frequently

          13                            Report No. 2000-P-0028
                          asked questions and answers about the guidance. Another
                          way state officials could also make the completion of the EI
                          forms consistent would be to share the completed forms
                          electronically. Since EPA intended in its guidance to
                          facilitate more consistent determinations across the regions
                          and states, and with the GPRA deadline of 2005 fast
                          approaching, sharing the EI forms early will be crucial in
                          helping the Agency meet its GPRA goal. Sharing the
                          completed EI forms internally and with authorized states
                          would also strengthen accountability because project
                          managers may be more careful in completing the forms
                          knowing that the forms were available to other technical
                          experts.

                          After more consistency in completing the EI forms has been
                          established, EPA may also share the EI forms publicly. One
                          regional official believes that the EI forms were not
                          intended to be public documents because the forms may
                          require technical assistance to be understood. However,
                          because achievement of EI is a GPRA commitment and
                          Congress relies on the information in each EI determination,
                          the public has the right to know and easily understand the
                          rationale for the decisions made by EPA or authorized
                          states.

Emphasize Importance of   Our second concern about EI documentation was that some
Effective Reference and   of the EI documents we reviewed contained insufficient
Rationale                 references or unclear explanations of how the EI
                          determinations were made because the guidance is not
                          specific about the details needed for a reference and does
                          not emphasize the need for a rationale. Rather, the
                          ”Rationale” portion of the forms can be [emphasis added]
                          filled in to explain unique situations to any length necessary.
                          In its guidance, EPA required the minimal level of
                          documentation to ensure that the determinations will be
                          verifiable. However, without an effective reference and
                          rationale, a reader is not able to clearly understand how the
                          EPA or state project manager came to the conclusion that
                          current human exposures or contaminated groundwater
                          migration were under control. Understanding how the
                          determinations for the EI were made is crucial for verifying
                          the accomplishments made toward achieving the GPRA
                          goal.


                                    14                             Report No. 2000-P-0028
In addition, some EI documentation included incomplete or
technical references and rationale to support the project
managers’ conclusions. For example, documentation for
one EI said, “RCRA Facility Investigation [RFI] Report” in
the reference and rationale portion and did not explain how
EPA determined that the human exposures were under
control. The documentation did not explain how EPA
determined that the pathways (groundwater, indoor air,
surface soil, surface water, sediment subsurface soil, or air)
were not contaminated. In addition, the reference to the
RFI report did not include a date or page number(s) so that
one could easily review the reference document and
understand how the determination was made. See
Appendix 2 for two examples of EI determinations (CA725
and CA750) that have an effective reference and rationale
section and Appendix 3 for two examples of those that we
considered lacking.

Because the EI determinations are public documents used to
support the GPRA goal, the documents should always be
clear enough for the general public to understand. We
recognize that the EI documents are technical documents.
However, some of the documents contained abbreviations
or technical language or acronyms which the general public
may not fully understand. For example, on one of the
forms, the reference and rationale(s) stated “VOCs above
MCLs, see draft Phase I RFI report.” While EPA and state
employees may understand that this rationale means
“volatile organic compounds above maximum contaminant
levels,” the average citizen may not understand these
technical terms. Again, the draft Phase I RFI report did not
contain a date or a page number for someone to easily
verify the information in the determination.

In his June 1, 1998, Memorandum to Heads of Executive
Departments and Agencies, President Clinton stated that,

       The Federal Government’s writing must be in plain
       language. By using plain language, we send a clear
       message about what the Government is doing, what
       it requires, and what services it offers.

It also requires that all documents explain how to comply
with a requirement that EPA and authorized states

          15                             Report No. 2000-P-0028
                       administer or enforce. If such plain language were included
                       in the reference and rationale portion of EI document to
                       support the determination, we believe the average reader
                       should be able to clearly understand how the determination
                       was made, and EPA would be able to easily account for its
                       EI accomplishments.

                       Because the EI guidance did not specify the type of
                       reference needed, nor did it strongly emphasize the need for
                       a rationale, project managers did not always include an
                       effective reference or rationale. Therefore, an average
                       reader may not be able to understand how the project
                       manager concluded that current human exposure and
                       groundwater determinations were under control. In
                       addition, Agency officials may not be able to account for the
                       accomplished EI determination because of insufficient
                       support for the decisions made.

Develop Guidance for   Lastly, the CA program could improve overall GPRA
Reevaluating EI        outcomes by developing guidance on reevaluating the
Determinations         determinations made in the EI documentation. The EI
                       guidance currently provides that the determinations remain
                       in RCRIS as long as they remain true. Regulatory
                       authorities must change RCRIS codes when they become
                       aware of contrary information. However, EPA program
                       managers indicated that the guidance was not available.
                       EPA project managers asked whether guidance would be
                       provided as to how often the EI should be revisited or
                       updated. Without guidance on updating the EI
                       determinations, RCRIS may become inaccurate, and
                       potential human exposures or migration of groundwater
                       contamination may go unnoticed.

                       EPA does not have sufficient guidance on reevaluating the
                       EI, because CA officials focused on completing its initial EI
                       evaluations of the RCRA baseline facilities. They also
                       trained regional and state officials on completing the EI
                       evaluations so that they could achieve their GPRA goal in
                       the short time frame allowed. In addition, Headquarters
                       CA officials do not want to specify a specific interval for
                       reevaluation because they want program managers to make
                       sure that the information remains current. Headquarters
                       officials commented that program managers are
                       continuously receiving information regarding a facility, and

                                 16                           Report No. 2000-P-0028
                   that information should allow program managers the ability
                   to continuously determine whether the EI status should
                   change. Headquarters officials “never saw the reevaluations
                   leading to new dates in RCRIS.” Headquarters officials
                   have empowered regional officials to make those
                   determinations as needed. Headquarters officials also
                   suggested that their oversight role would be key in making
                   sure the EI information in the RCRA information system
                   remains current.

                   When CA officials perform periodic reevaluations, the
                   accuracy of the date in RCRIS may be key for determining
                   when the reevaluations might be needed. Chapter 5 details
                   concerns about the accuracy of RCRIS data that EPA may
                   want to address to ensure that managers rely on accurate
                   data to make reevaluations more timely.

                   Because hazardous waste may remain at a facility, and
                   conditions may change after an EI determination has been
                   made, EPA needs to periodically review prior EI
                   determinations. If EPA does not reevaluate prior
                   determinations, they may become outdated and inaccurate
                   in RCRIS. In fact, some of the EI documents were
                   completed in 1996 and in 1997. Furthermore, potential
                   risks to human health and the environment could go
                   unnoticed. By reevaluating EI determinations, EPA may
                   prevent the risk of exposure to humans and migration of
                   contaminated groundwater. To make sure that the EI
                   evaluations remain accurate and to plan for resources to
                   accomplish them, EPA needs to develop guidance for
                   reevaluating its EI determinations.

                   Conversely, where hazardous waste is not left at facilities
                   after clean up, reevaluations may no longer be needed. CA
                   management may want to consider adding a code in RCRIS
                   indicating that a reevaluation is not necessary. Therefore,
                   stakeholders will be able understand why the original EI
                   accomplishment date in RCRIS may not appear to be
                   current.

RECOMMENDATIONS	   We recommend that the Assistant Administrator for Solid
                   Waste and Emergency Response:



                            17                           Report No. 2000-P-0028
2-1	   Facilitate achievement of OSWER’s ultimate GPRA
       goal by providing a clear definition of restoration in
       the context of site cleanup, or clarify the strategic
       goal as it applies to RCRA CA.

2-2	   Emphasize in guidance, training and routine
       interactions with stakeholders, that the Migration of
       Contaminated Groundwater Under Control
       environmental indicator has a significant ecological
       component with regard to surface water ecosystem
       protection for situations where contaminated
       groundwater enters surface water. Also, develop an
       ecological environmental indicator for final remedies
       to be achieved before, or concurrent, with the
       ultimate goal of restoration, which includes an
       ecological protection component. (CA officials
       interpret restoration in this context to mean that
       cleanup goals for final remedies have been
       achieved.)

2-3	   Develop a list of frequently asked questions and
       answers about the EI guidance, and share the EI
       evaluation forms electronically, first to EPA and
       state regulators internally, and then publicly.

2-4	   Emphasize the need for a clear and effective
       reference and rationale for each EI determination.

2-5	   a) During your annual planning process, commit to
       maintaining current information on EI in RCRIS.

       b) Emphasize in new guidance, training and routine
       interactions that EI determinations are meant to
       reflect current conditions. As such, regulators
       should modify EI determinations when warranted
       based on information (e.g., monitoring, inspections,
       site visits, etc.) obtained during the course of
       carrying out their oversight responsibilities.

       c) Devote special attention to making sure that the
       EI determinations made prior to the February 1999,
       guidance, or those that do not have the new EI
       documentation supporting them, are reevaluated and
       have the proper documentation to support RCRIS.

         18                            Report No. 2000-P-0028
19   Report No. 2000-P-0028
THIS   PAGE   INTENTIONALLY   LEFT    BLANK             





                     20              Report No. 2000-P-0028
                       CHAPTER 3
CA COMPELLED IN PERMITS OR ORDERS AT MOST SITES, BUT
CONCERNS FOR ACHIEVING THE GPRA GOAL REMAIN

                       According to RCRIS, CA has been initiated in permits or
                       orders at a majority of the baseline facilities. (For the three
                       regions we visited, we reviewed the documentation
                       supporting the RFI imposition. Even though the dates did
                       not always match, the documentation generally supported
                       the fact that the RFI had been imposed.) Where CA has not
                       been initiated, Agency or authorized state officials in
                       Regions 4, 5, and 6, have or are developing detailed site-
                       specific plans to compel CA. However, regional and state
                       officials had concerns about achieving the EI goals for
                       2005. Several obstacles may prevent EPA from achieving
                       the EI and from restoring sites, and potential risk to human
                       health and the environment may still exist.

CA INITIATED AT MOST   EPA or authorized states began CA when they required
BASELINE FACILITIES    (imposed) the RFI in permits or orders at 1,287 (75%) of
                       the1,712 RCRA baseline facilities as of April 1999. Where
                       CA has not been initiated, Agency or authorized state
                       officials in Regions 4, 5, and 6, have or are developing
                       detailed site-specific plans to compel CA. For example,
                       Region 4 has imposed CA at 238 (84%) of the 285 baseline
                       facilities in its region. Region 4 officials have begun to
                       develop a strategy using site specific schedules to achieve
                       the EI. Region 4 officials asked their authorized states to
                       complete two-page site summaries explaining the status of
                       CA. The site summaries will be used by the regional staff to
                       negotiate CA and EI completion with facility owners. For
                       the states that are not authorized, EPA is developing in-
                       house schedules for EI accomplishments. Also, the
                       beginning-of-the-year plan (BYP) that the Region
                       negotiated with its states for FY 2000, included site-specific
                       schedules for completion of the EI.

                       Region 5 or state officials imposed CA at 202 (71%) of the
                       286 baseline facilities in the region. For facilities that the
                       Region has the lead and has not imposed CA, officials

                                 21                             Report No. 2000-P-0028
                       developed a plan in September 1999, to address the
                       facilities.

                       Region 5 management is closely monitoring the progress of
                       EI by holding quarterly meetings with individual project
                       managers. Region 5 officials are also concerned about the
                       amount of work at state lead sites they may have to do
                       themselves. Region 5 officials have begun to implement
                       innovative tools to move more quickly towards cleanup and
                       are including language which requires facilities to achieve
                       EI by specific dates. For example, on October 28, 1999,
                       EPA and the Hoover Company established a voluntary CA
                       agreement to work independently to clean up releases of
                       hazardous waste or hazardous constituents at the Hoover
                       facility located in North Canton, Ohio. The parties believe
                       that Hoover will appropriately and effectively investigate
                       and remediate the facility on an accelerated basis. EPA and
                       Hoover are to achieve the EI by September 2001. As
                       another example, EPA and General Motors signed a CA
                       order on August 30, 1999, which required completion of
                       the EI by September 2001.

                       Region 6 or state officials imposed CA at 136 (74%) of the
                       184 baseline facilities in the region. For facilities where the
                       Region has not imposed CA, Regional officials asked state
                       officials for the status of baseline facilities. Two states in
                       the Region that contain the vast majority of the baseline
                       facilities and for which it is critical for the Region to
                       accomplish the GPRA goal - - Texas and Louisiana - - sent
                       environmental questionnaires to each of their baseline
                       facilities. Regional officials believe that the information will
                       help state officials accomplish the EI. Region 6 officials are
                       also including EI accomplishments in their grant agreements
                       with states to encourage accomplishment of the EI.

RCRIS INDICATES THAT   The actions the regions have taken thus far appear to be
CA PROGRAM             effective since the EI are being achieved in accordance with
CURRENTLY ON TRACK     the plans. As of January 2000, when we last queried
TO ACCOMPLISH THE      RCRIS, it indicated that the CA program is on track to
EI; SOME               accomplish the EI. Agency officials planned to have under
ENVIRONMENTAL          control current human exposures at 344 facilities and
ACTIONS TAKEN          migration of contaminated groundwater at 256 facilities by
                       the end of FY 2000. According to RCRIS, the Agency
                       exceeded its expectations by 110 and 120 EI, respectively.

                                 22                              Report No. 2000-P-0028
However, we had concerns about the accuracy of some of
the EI data entered in RCRIS, which will be discussed in
Chapter 5.

We also considered the effectiveness of the positive EI
determinations that were claimed. EPA or an authorized
state official makes a positive determination when there are
no “unacceptable” human exposures to “contamination”
that can be reasonably expected under current land and
groundwater use conditions and enters code CA725 in
RCRIS. Code CA750 should also be entered in RCRIS
when an EPA or authorized state official determines that the
migration of “contaminated” groundwater has stabilized,
and that monitoring will be conducted to confirm that the
contaminated groundwater remains within the original “area
of contaminated groundwater.” These codes are to remain
in RCRIS as long as they remain true (i.e., RCRIS codes
must be changed when the regulatory authorities become
aware of contrary information.) For the purpose of this
report, a positive EI will also include those facilities where
EPA or states determined that no control measures were
needed or that there were no releases to groundwater.

We received 62 positive EI determinations from Regions 4,
5, and 6. Based on our review of the EI documents, we
concluded that for a little more than half (36 of 62) of the
positive EI determinations, owners/operators took some
environmental action to accomplish the EI. Some examples
of the environmental actions taken included installation of
groundwater systems to treat or hydraulically contain
groundwater, removal of contaminated soil, or capping of
contaminated areas. No environmental action, except for
institutional controls, was needed to accomplish about one-
third (20 of 62) of the positive EI determinations.
Examples of institutional controls included the construction
of a fence, restriction on drinking water wells, or residents
being provided with alternate drinking water sources.
(Note: The Agency is currently refining its definition of
institutional controls.) Finally, for the six remaining positive
EI, the documentation did not clearly explain whether any
action was taken in the reference or rationale sections of the
EI documentation. The details of the positive EI
documentation are summarized in Table 3-1.


          23                             Report No. 2000-P-0028
                                    Table 3-1

  Summary of Environmental Actions Taken as Described in Positive EI Documentation


   EI Code      Number of     Environmental       No Action Taken            Action Taken
                Positive EI   Action Taken          Except For                 Unclear
                 Received                           Institutional
                                                      Controls
   CA725            32             15                     13                       4
   Human
  Exposures

   CA750            28             19                      7                       2
 Contaminated
 Ground Water


    Totals          60             34                     20                       6

OBSTACLES MAY                   EPA appears to be on track to achieve the EI by 2005, and
PREVENT                         has efforts underway to speed cleanup. However, regional
ACCOMPLISHMENT OF               officials expressed concerns that the goal may not be
THE EI                          achieved because of several obstacles. Most of the
                                following obstacles were the same for states as for EPA.
                                Some of the obstacles are out of EPA’s or states’ control
                                while others are not. The following obstacles can be
                                compounded by the fact that some regional officials believe
                                that action has been completed at the “easy” facilities first,
                                and that this will result in an even greater challenge to
                                accomplish the remaining EI at the most complex facilities.
                                The table above supports this belief because approximately
                                one-third of the EI accomplished thus far required only
                                institutional controls for achievement of the EI.

                                Another obstacle, which will be discussed in Chapter 4, was
                                the lack of resources for some states.

Federal Facilities’ Size,       The obstacle that may be the hardest to overcome was that
Complexity, and Funding         many of the facilities were large and complex federal
Present an Obstacle             facilities that have numerous SWMU. For example,
                                approximately 40 (14%) of the 287 Region 4 facilities
                                requiring EI completion are federal facilities. According to
                                Regional officials, the federal facilities are large, have a lot
                                of SWMU, and will require a significant amount of work.
                                Region 4 officials indicated they may not meet the EI goals

                                          24                              Report No. 2000-P-0028
                           for federal facilities. However, regional officials are
                           meeting with the Air Force and Department of Defense
                           (DoD) to begin partnering and creating teams with EPA,
                           state, and federal representatives.

                           Region 5 officials expressed similar concerns about federal
                           facilities. While they indicated that federal agencies in their
                           region were cooperative, they said that the agencies do not
                           always have the funding necessary to initiate or complete
                           CA. Facilities have to compete with each other to get
                           funding and the fastest way to get funding is to do quick
                           fixes such as removal actions.

                           One state official also indicated that the ability of the federal
                           government to clean up federal facilities sets precedent for
                           private facilities and creates a credibility problem. Some
                           facilities have commented to the state officials that if the
                           government is not doing its job to clean up facilities, why
                           should they. Addressing federal facilities seemed especially
                           important for these officials.

                           Finally, Headquarters and state officials also mentioned that
                           some federal agencies’ GPRA goals are not the same as
                           EPA’s. RCRA officials are meeting with relevant federal
                           agency officials to address these obstacles.

Grants Did Not Encourage   Though recently changed in at least Regions 5 and 6, the
Accomplishment of EI       grant process was not designed to encourage
                           accomplishment of El because the grants were awarded
                           based on the achievement of EI instead of the CA process.
                           To try to make the cleanup process performance based,
                           some of the regions have changed their grants in FY 2000
                           to require EI completion. Region 6 officials have initiated a
                           “best practice” and have been able to encourage states to
                           accomplish EI by requiring their completion in the grants
                           and providing funding based on the completion of the EI.
                           The Region no longer provides funding for accomplishment
                           of the CA process steps. This best practice appears to be a
                           technique that other regions may emulate and implement to
                           help achieve the EI.

                           As another example, in Region 5, states’ priorities are often
                           enforcement and inspections, and may differ from district to
                           district, state to state, or from EPA’s priorities. As a result,

                                     25                              Report No. 2000-P-0028
                                Regional officials have changed their grant agreements with
                                states to require states to focus on achieving the EI instead
                                of the CA process steps.

EI May Not Be                   Region 4 officials are concerned that a number of facilities
Accomplished at Bankrupt        in their Region may be bankrupt facilities. They estimate
Facilities or Facilities with   that as many as ten percent of their baseline facilities may be
Limited Funding                 bankrupt. Some of these facilities may be high priority and
                                may be addressed by the Superfund program. For example,
                                one facility in our sample was deferred to the Superfund
                                program because the company became insolvent. For
                                similar facilities, RCRA officials will have to coordinate
                                closely with Superfund officials who may not be
                                emphasizing accomplishment of EI at RCRA facilities.
                                Regional officials are also concerned about the facilities that
                                might not be ranked high enough for Superfund to address.
                                Because the facilities may not have the funding and they are
                                not ranked high enough for Superfund to address, officials
                                are calling these sites “gap” sites. At sone of these sites, the
                                only way EI may be accomplished is if states have the
                                authority and the resources to clean up the facilities.

                                Headquarters and regional officials expressed concern about
                                facilities that have limited funding. The concern of limited
                                funding is important, and this issue was discussed at the
                                RCRA Senior Policy Management Meeting in May 2000.
                                One Headquarters official told us that several facilities in
                                each region are economically strained, and the Agency is
                                concerned that putting these facilities on a tight schedule to
                                achieve the EI by the GPRA deadline may cause the
                                facilities to go into bankruptcy. However, if the cleanup
                                cost is marginal, EPA will attempt to collect money up front
                                from facility owners so that Superfund would not have to
                                pay as much to clean up the facility. Because of the
                                importance of this issue, the Assistant Administrator for
                                OSWER directed his staff to develop guidance to address
                                various tools used to speed up the cleanup process. In
                                addition, regulators could also use Superfund removal
                                authorities to speed up the cleanup process.

                                In response to the draft report, Region 6 officials indicated
                                that the obstacle related to “gap” sites does not appear to
                                exist in Region 6.


                                          26                             Report No. 2000-P-0028
Complexity and Size of   Region 6 officials commented that the complexities in
Sites                    Region 6 involve large industrial sites. Region 6 facilities
                         may be comprised of many acres. Region 6 is the largest
                         generator of waste and the largest disposer of waste, with
                         Texas ranking first and Louisiana second for the entire
                         United States. Texas also has the fourth largest number
                         (93) of baseline facilities in the country where EI must be
                         accomplished by 2005.

                         Region 5 officials also described similar obstacles. For
                         example, they described one site that had 107 SWMU. This
                         facility was being contaminated by various types of
                         pollution from yet another facility. Another similar
                         complexity was exhibited at a facility that is listed as a
                         Superfund site and has overlapping Superfund concerns.

Indoor Air               Recent studies from RCRA remediation sites show that
                         buildings located above a contaminated groundwater plume
                         contain gases from volatile pollutants in the contaminated
                         groundwater, exposing the residents to unacceptably high
                         levels of possible carcinogens. The resulting high indoor air
                         concentrations in these homes exceeded Superfund
                         program’s cancer risk cleanup standard. As a result of this
                         concern, one Headquarters official instructed regional
                         officials not to make positive EI determinations until they
                         have considered indoor air along with other potentially
                         contaminated media and exposure pathways. The additional
                         work that may be required to review the indoor air concern
                         may prevent accomplishments of the EI at these sites by
                         2005.

Other Obstacles          Regional or state officials cited other obstacles that may
                         prevent them from achieving the EI by 2005.

                                •	        Litigation: Both regional and state officials
                                          commented that once a facility litigates,
                                          chances for completing EI by 2005 decrease.

                                •	        State Buy-in and Understanding of EI:
                                          Region 5 officials commented that states
                                          may not be fully aware of GPRA goals or
                                          understand the purpose of the EI documents.
                                          Two of the regions have limited resources.
                                          Officials also commented that some state

                                     27                           Report No. 2000-P-0028
          officials may see the GPRA goal as an EPA
          mandate, not a state goal. See Chapter 4 for
          more information on state resources.

•	        Other State Priorities: One state official
          commented that it has a large state universe
          of RCRA facilities and that the baseline
          facilities in the state make up less than ten
          percent of the facilities the state oversees.
          Also, most of the baseline facilities are big
          facilities and resources will be stretched in
          addressing these facilities. Another state’s
          official commented that the state’s other
          priorities are the voluntary cleanup program
          and working on the state inventory of
          hazardous waste facilities.

•	        Many Facilities Are in the Early Stages of
          Cleanup: Region 5 officials indicated in
          their BYP that their biggest obstacle is that
          so many CA projects are in the early stages
          of the cleanup process. Region 5
          management will address this obstacle by
          working with project managers and facilities.
          Also, management plans to reinforce the EI
          priority by conducting quarterly meetings
          with each project manager to ensure all
          possible progress is made at each facility.

•	        Other GPRA Priorities: State officials also
          mentioned that they have other EPA GPRA
          goals they are trying to meet for other
          RCRA programs, Superfund, etc. Even
          though the CA EI are the highest RCRA
          priority for RCRA, one state official believed
          that all GPRA goals had equal priority.

•	        Groundwater-Surface water interaction:
          Some regional officials reported that many
          GPRA baseline facilities are located adjacent
          or very close to surface water bodies. To
          meet the migration of contaminated
          groundwater under control EI at such
          facilities (according to the February 5, 1999,

     28                            Report No. 2000-P-0028
                                  Agency guidance), regulators need to
                                  document whether or not contaminated
                                  groundwater is discharging into surface
                                  water, and if it is, whether or not that
                                  discharge is causing impacts to surface
                                  water, sediments or ecosystems that should
                                  not be allowed until a final remedy decision
                                  is made and implemented. Regulators
                                  described that meeting the EI goals at these
                                  facilities may be difficult due to the lack of
                                  detailed Agency guidance on assessing
                                  groundwater/surface water interaction, and
                                  that such assessments often warrant eco-risk
                                  experts who are not always available.

                   Agency officials are working hard to accomplish EI.
                   However, as a result of the many obstacles, it is possible
                   that regions may not accomplish the EI goals for 2005.
                   Early actions to mitigate the obstacles that EPA can control
                   may be key in achieving the EI by 2005. But because the
                   deadline is short, facilities may be forced into insolvency,
                   and the Superfund Trust Fund may have to absorb the cost
                   of cleanup. To try to address this concern, Agency
                   management is developing guidance to help facilities with
                   the cleanup process.

RECOMMENDATIONS	   We recommend that the Assistant Administrator for Solid
                   Waste and Emergency Response:

                   3-1    Minimize obstacles to achieving the EI goals for
                          2005. More specifically, work with other federal
                          agency management officials, such as DoD,
                          Department of Energy, Nuclear Regulatory
                          Commission, etc., to minimize obstacles to achieving
                          the EI, including developing consistent
                          environmental goals.

                   3-2    Encourage the use and transfer of the best practices
                          that regions are developing through the use of
                          regular communication calls, meetings, bulletins, or
                          newsletters.




                             29                            Report No. 2000-P-0028
3-3	   Instruct RCRA and Superfund officials to
       coordinate work that Superfund is completing on
       the baseline facilities so that the EI can be achieved.

3-4	   Work with states and EPA regions to identify
       potential “gap” facilities (from the 1,712 GPRA
       baseline) and provide guidance on the variety of
       tools (e.g., state cleanup authorities, EPA Superfund
       removal authorities, etc.) available to help states and
       EPA regions meet the CA programs’ GPRA EI
       objectives at these facilities.

3-5	   Develop guidance on groundwater/surface water
       interaction which identifies situations where
       ecological risk experts would typically be needed for
       making EI determinations, and assist regions in
       locating the sources of this expertise.




         30                             Report No. 2000-P-0028
                   CHAPTER 4

    EPA OFFICIALS BELIEVE RESOURCES ARE GENERALLY
    SUFFICIENT, BUT STATE RESOURCES MAY BE LIMITED

                    While the CA employees generally believe they have
                    adequate resources to address the CA baseline facilities,
                    state resources may be limited. Also, EPA has not aligned
                    its grants allocation formula with its priorities for achieving
                    the EI. As a result, authorized states that need resources
                    may not be receiving them. EPA and state program
                    managers may experience additional pressure to accomplish
                    the GPRA goal, particularly as the goal date draws nearer.
                    In order to achieve the GPRA goal, EPA has already begun
                    to take on a share of authorized states’ workload.

                    In May 2000, we presented an analysis of the grants
                    allocation formula to Headquarters officials who reviewed it
                    and used it to develop options for updating the formula.
                    Officials told us they reviewed the data, and because the
                    cost of the disruption was not worth the benefit of aligning
                    the funding with the new priorities, and because the
                    changes would result in too much disruption, they
                    concluded that the grant allocation would not be changed.
                    However, CA officials are expecting an increase in grant
                    funding beginning in fiscal year 2001. This new funding is
                    planned to be allocated according to the number of baseline
                    facilities.

SOME STATE          The resources dedicated by some authorized states to
RESOURCES MAY BE    achieving the EI appear to be limited due to the existing
LIMITED             heavy workload; differing state management priorities; the
                    lack of training of state staff about the EI; state personnel
                    rules that prevent certain states from hiring at all (hiring
                    freezes), hiring experienced staff who can assume greater
                    responsibilities for the state, or from hiring replacement
                    employees when others leave; and increased pressure to
                    meet the GPRA 2005 deadline. As a result, some states
                    initially had difficulty supporting EPA in its quest to achieve
                    its GPRA goal, and EPA has had to assume some of the
                    authorized states’ workload. (Some of this work sharing,

                              31                             Report No. 2000-P-0028
                       however, can also occur because of technical or policy
                       reasons or because the states have asked for a Federal
                       presence at a facility.)

Existing Heavy State   Regional officials believe that some states are especially
Workload               overworked and overwhelmed, and lack experience and
                       expertise, especially in the area of assessing risk. They are
                       responsible for conducting inspections, issuing permits,
                       remedial actions, enforcement, CA, closures, etc. For
                       example, one state’s responsibilities include permit renewals
                       and modifications, post closure reviews to determine which
                       facilities have controls in place, closure plan reviews, and
                       significant non-complier enforcement. In addition to the
                       GPRA goal for CA, EPA has assigned other GPRA goals
                       for which the state is responsible to achieve. State officials
                       believe that all EPA GPRA goals have equal priority. To
                       compound matters, EPA has now imposed a deadline for
                       the GPRA goals, including CA EI, to be achieved by 2005,
                       without yet providing any additional resources. However, if
                       the requested budget is approved by Congress, beginning in
                       fiscal year 2001, EPA will supplement the CA program
                       funding with an additional $8 million in grant funding to
                       states and tribes.

                       An official from another state indicated concerns about the
                       addition of the GPRA goal to their existing workload,
                       which includes the oversight of cleanup at facilities in the
                       state inventory as well as the implementation of RCRA at
                       the CA baseline facilities. Some state officials may perceive
                       the requirement to achieve the GPRA goal as a federal
                       responsibility and not a state responsibility. State officials
                       are already responsible for implementing other parts of
                       RCRA. One state official told us that they are also
                       responsible for conducting site assessments and inspections
                       of currently operating facilities, issuing permits and permit
                       modifications, providing technical assistance to facilities,
                       and overseeing closure and post-closure of facilities. In the
                       same state, there was a significant backlog of documents,
                       such as corrective measures studies, that state officials
                       needed to review. At one time, about 2,000 documents
                       needed to be reviewed; the backlog has been reduced to
                       approximately 800. The priorities EPA imposes put
                       constraints on state resources and the state has to channel
                       its resources from other areas to address EPA’s priorities.

                                 32                            Report No. 2000-P-0028
Differing Management       In addition to the existing heavy workload, states have other
Priorities and Increased   priorities that may conflict with EPA priorities. Regional
Pressure to Meet GPRA      officials recognize the states’ differing priorities. For
Deadlines                  example, one state is working to implement new risk
                           reduction rules to address facilities in the state inventory as
                           well as EPA’s. In the past there were no time lines to
                           complete cleanup; now the project managers are pressured
                           to achieve the GPRA goal by the deadline of 2005. While
                           GPRA baseline sites make up less than 10% of the state’s
                           universe of sites, the pressure on this state’s project
                           managers may be greater than those of other states because
                           this state has a proportionately large share of baseline sites.

Increasing Regulatory      In addition to the heavy workload and other state priorities,
Responsibilities           states have increasing regulatory responsibilities, but the
                           staffing level is kept the same or decreased. For example, in
                           Regions 5 and 6, Regional officials indicated that the
                           authorized states have been delegated the regulations for
                           boilers and industrial furnaces (BIF). Region 6 has a very
                           significant BIF and incinerator universe. As a result,
                           combustion and associated risk assessment are a priority.
                           To address the universe, Region 6 officials have entered
                           into a work sharing arrangement with one state and are
                           involved with many combustion facilities in the Region.
                           Region 4 also provides significant technical support to the
                           states on certain regulations.

                           Another state officials expressed concern that in addition to
                           other competing non-GPRA goals for which they are
                           responsible, they have other state priorities, such as the
                           state’s voluntary cleanup program and other state sites
                           which they need to address. The state also has to ensure
                           compliance, issue permits, and still achieve the EI by 2005.

EI Training                As discussed in Chapter 2, only a few state employees in
                           each region were able to attend the RCRA CA workshop
                           regarding EI. Regional officials are visiting states and
                           working with state officials to teach them how to apply the
                           EI guidance and complete the EI forms. In addition, one
                           state in Region 5 has only been authorized for CA for about
                           3 years so it has less program experience. Six other states
                           may also be experiencing a similar learning curve as they
                           were authorized for CA at about the same time or later.


                                     33                             Report No. 2000-P-0028
                        Again, EPA held the EI forum in August 2000, to discuss
                        the EI guidance.

State Personnel Rules   One state official said that his state has a hiring freeze. In
                        addition, the state’s policy requires that entry level staff,
                        instead of experienced staff, be hired. Officials have four
                        months to backfill any positions, and if they are not filled in
                        that time frame, the state loses the position. Also,
                        remaining state employees have increased responsibilities
                        because, in addition to their own jobs, senior project
                        managers must train new entry-level staff, or must assume
                        departing employees’ responsibilities.

OUTDATED GRANTS         EPA offers grants to states to assist them in developing or
ALLOCATION              implementing authorized hazardous waste management
FORMULA MAY BE          programs. Each EPA regional office receives an allotment
CAUSING RESOURCES       based on a formula that considers multiple factors, such as
TO BE MISALLOCATED      population and the amounts and types of hazardous waste
                        generated in each region. States then submit proposed
                        work plans that outline planned activities in the upcoming
                        year, including CA, permitting, enforcement, and program
                        management. EPA regions then negotiate with each state
                        about the specific work to be accomplished with these
                        grants.

                        To compound the limited state resources, EPA has not
                        recently updated the data used in the formula, nor the
                        formula itself, to allocate grant resources among states and
                        tribes. The grant allocation formula has not been updated
                        since May 25, 1995. The data used to calculate grant
                        resources allocated to each region has not been updated
                        since FY 1996. Neither the formula, nor the data, has been
                        changed because some states would have received more
                        funding and some less, and these changes in the allocation
                        would have caused too much disruption. Also, the budget
                        has remained the same since FY 1996, the staff member that
                        developed the formula left the program, other resources
                        have not been available for the potentially resource-
                        intensive effort of changing the formula and updating the
                        data, and there is no consensus among the regions on how
                        the formula should change. However, the priorities, and the
                        related data that should be used in allocating resources for
                        the program, have changed. As a result: (1) EPA’s
                        resources may not be aligned with its priorities, and

                                  34                             Report No. 2000-P-0028
accomplishing EI may be more challenging; (2) some of the
states may not be receiving funding they need, and may find
it more difficult to contribute to the accomplishment of EI;
and (3) EPA may potentially be wasting resources when it
provides more funding than necessary to some states.

Since FY 1996, RCRA has had an annual budget of
approximately $98.6 million to allocate to states and tribes.
Approximately $11.7 million of the budget was allocated to
special initiatives called geographic and combustion
initiatives, such as the Great Lakes Initiative. The
remaining budget of $86.9 million was distributed to states
and tribes for enforcement, permitting, CA, and other
activities. The CA program has had a steady budget
allocation of approximately $25 million in state and tribal
grants since FY 1996. The allocations for CA for the states
and tribes were based on the number of CA workload
(CAWL) facilities in each region. As mentioned earlier, the
CAWL is a list of facilities that were actively seeking a
permit to operate as a treatment, storage, or disposal
facilities or sites that were undergoing cleanup. In FY
1996, the CAWL was comprised of 4,910 facilities. In July
1999, the CA program changed its priorities and focused its
efforts on achieving EI and the overall GPRA goal of
restoring sites. To measure its progress toward the GPRA
goal, in July 1999, CA officials finalized a list of 1,712
facilities called the GPRA baseline.

Based on the concerns we heard about limited state
resources, we believed some analysis of how the state and
tribal grant resources were allocated was needed.
Headquarters officials provided us with the best available
CAWL data that they believed was used for the FY 1996
grant allocation. We compared the GPRA baseline and
CAWL data. The number of baseline sites in each region
was not always proportionately similar to the number of CA
workload sites in each region.


In May 2000, we presented an analysis to Headquarters
officials who reviewed it and used it to develop options for
updating the formula. Officials told us they reviewed the
data, and because the cost of the disruption was not worth
the benefit of aligning the funding with the new priorities,

          35                            Report No. 2000-P-0028
                            and because the changes would result in too much
                            disruption, they concluded that the grant allocation would
                            not be changed. However, CA officials are expecting an
                            increase in grant funding beginning in fiscal year 2001. This
                            new funding is planned to be allocated according to the
                            number of baseline facilities.

Increased Grant Resources   While the increase of grant funding to some states may in
May Not Solve All           fact be needed, the provision of additional grants may not
Concerns                    solve all of the resource concerns, because EPA may not be
                            assured that the additional funding will be spent on
                            achieving EI for CA. EPA provides funds to states using
                            performance partnership agreements or cooperative
                            agreements. However, under performance partnership
                            agreements, states may commit to a number of sites to be
                            addressed, but they do not have to provide site-specific
                            details on the grant funding spent, nor do states have to
                            specify that the grant funding was spent on CA. Therefore,
                            before providing additional grant resources, EPA needs to
                            hold the states accountable for achieving the CA work for
                            which the additional grant resources are intended.

                            One thing EPA officials could do to best prepare themselves
                            and state officials to achieve the GPRA goal would be to
                            examine the states’ ability to meet the demands EPA is
                            placing on states. In BYPs that regions prepared for FY
                            2000, only one indicated that the region had evaluated the
                            states’ capability for the delegated work. Some regional
                            officials indicated that they remain constantly aware of
                            states’ capability. However, BYPs for many of these same
                            regions indicated that they were sharing more work with the
                            states. To help accomplish the EI goal by 2005, EPA may
                            have to assume a greater share of authorized states’ work.

RECOMMENDATIONS             We recommend that the Assistant Administrator for Solid
                            Waste and Emergency Response:

                            4-1	   Routinely evaluate whether the states have sufficient
                                   resources, technical capabilities, and legal authority
                                   (consistent with RCRA CA) to ensure EI goals are
                                   met by using numerous existing mechanisms (e.g.,
                                   state visits, annual work planning/work sharing
                                   discussions) for assessing and enhancing
                                   performance of authorized states. Where issues are
                                   identified which would significantly impact a state’s
                                   ability to meet EI goals, Regional officials should

                                      36                            Report No. 2000-P-0028
       document those issues and develop a written plan to
       work aggressively with that state to resolve those
       issues and ensure that progress continues towards
       meeting those goals. Additionally, regions should
       continue to share work with states where needed.

4-2	   Monitor states’ accomplishments achieved with EPA
       funds so that states are held accountable for
       achieving the CA work for which the additional
       grant resources are intended.




         37                           Report No. 2000-P-0028
THIS   PAGE   INTENTIONALLY   LEFT     BLANK            





                    38               Report No. 2000-P-0028
                      CHAPTER 5

      CLOSER MONITORING OF GPRA PROGRESS NEEDED



                      EPA needs to more closely monitor the GPRA progress
                      reported in RCRIS because the system (RCRIS) does not
                      indicate the date(s) when EI determinations are entered to
                      reflect current and complete EI determinations. Also,
                      RCRIS did not always accurately reflect dates that EI were
                      accomplished, and EI documentation was not always
                      available. Because EPA cannot determine the timeliness of
                      the data reported, and because of the inaccurate or
                      unsupported EI information in RCRIS, EPA or
                      Congressional officials may not be able to rely on RCRIS
                      for monitoring progress toward the GPRA goal.

RCRIS DOES NOT        RCRIS does not allow RCRA officials to determine whether
INDICATE WHEN EI      or not EPA is receiving timely information from authorized
ENTERED; TIMELINESS   states regarding the accomplishment of EI. The OSWER
UNDETERMINABLE        FY 2000-2001 Consolidated Guidance states that RCRIS
                      should accurately reflect program progress and that
                      important milestones, including EI accomplishments, must
                      be entered. State officials did tell us that they enter EI
                      accomplishments as they are achieved. RCRIS does reflect
                      some EI accomplishments (dates EI documentation is
                      signed), but it does not indicate when the accomplishments
                      were entered into RCRIS. Therefore, EPA officials are
                      unable to determine whether they are receiving timely EI
                      information.

                      Even though RCRIS does not indicate when EI are entered,
                      regional officials say they are able to monitor EI progress.
                      Regional officials told us that they are able to monitor the
                      progress made by state officials by holding periodic (semi-
                      annual) meetings with officials from authorized states.
                      During these meetings they discuss progress toward
                      achieving goals set in the BYPs. Communication on
                      progress also occurs when regional officials work with
                      authorized state officials who are gathering information
                      from facilities to develop strategies for accomplishing EI.

                                39                           Report No. 2000-P-0028
                    CA officials told us that a new information system called
                    RCRAInfo will be implemented on or about October 1,
                    2000. However, this new system will not track the dates
                    when the EI accomplishments were entered so that
                    timeliness can be determined.

EI INFORMATION IN   RCRIS was not accurate because EI data quality may only
RCRIS NOT ALWAYS    be reviewed twice annually and because supporting
RELIABLE            documentation was not made available by states. As a
                    result, CA officials may not be able to rely on the data for
                    monitoring progress and may not be able to rely on the EI
                    accomplishment dates in RCRIS for the purpose of knowing
                    when potential reevaluations may be needed. Also,
                    Congress may not be able to rely on the RCRIS data in the
                    Agency’s annual performance report.

                    EPA and authorized states are required to work together to
                    achieve results for the success of the program. In order for
                    the RCRIS database to accurately reflect program progress,
                    complete information on actions to initiate CA, stabilization,
                    or cleanups, and the EI determinations must be entered into
                    RCRIS. State officials indicated that the primary means of
                    communicating progress to EPA is via RCRIS. When we
                    asked state officials how they ensure accuracy of the data
                    that they enter in RCRIS, one official told us that his state
                    meets twice each year - - at mid-year and year-end - - with
                    EPA officials. Another state’s official indicated that the
                    state were responsible for data accuracy. The person that
                    completes an EI report provides the report to the supervisor
                    who reviews and approves it. However, the official did not
                    think RCRIS would ever give an accurate date of
                    accomplishment. Because the date does give EPA and state
                    management the information on how “current” the EI
                    determinations are, the EI date may be critical to making
                    sure that the EI determinations in RCRIS remain valid and
                    that data presented to Congress and the public is reliable.

                    Regional officials in Regions 4, 5, and 6 provided 39, 17,
                    and 4 positive EI, respectively. Only 23 (38%) of the 60
                    positive EI were accurate (the date the EI document was
                    signed matched date of accomplishment in RCRIS); less
                    than half of the documentation accurately supported the
                    information in RCRIS (the date the EI document was signed
                    did not match the date of accomplishment in RCRIS). Also,

                              40                            Report No. 2000-P-0028
                                  eight of the EI were incomplete because they were not
                                  dated or because an accurate conclusion was not selected
                                  on the EI form. In this case, regional officials are making
                                  conclusions about the facility using a previous definition for
                                  EI specified in EI guidance issued in 1994. Twenty-four
                                  documents had dates that varied from RCRIS, from two
                                  days up to one year. Five of the positive determinations
                                  were not included in RCRIS as of January 2000, even
                                  though they were accomplished in March 1999. (When we
                                  spoke with Region 5 officials about some of these sites, they
                                  provided documentation that showed that they had entered
                                  the accomplishment dates in RCRIS as of May 2000.) In
                                  total, 37 of the EI determinations were different than, did
                                  not support, or were not included in RCRIS. Table 5-1
                                  below summarizes the data quality for the positive EI
                                  determinations. Appendices 4, 5, and 6 list the site specific
                                  data for the determinations.

                                        TABLE 5-1
                     Analysis of Positive EI Determinations in RCRIS

Regions   Number of            Accurate            Incomplete      Inaccurate         Not in
          Positive EI       (Documentation        Determination      Date in         Database
          Documents            Matches                              Database
          Received for        Database)
          Sampled
          Facilities
   4            41                17                   7                15                2
   5            17                 8                   1                5                 3
   6            4                  0                   0                4                 0
Totals          62                25                   8                24                5

                                  Also, Regional officials were not always able to provide
                                  documentation supporting the EI determinations. Regional
                                  officials in Regions 5 and 6, where all of the states are
                                  authorized for CA, told us they would only provide
                                  supporting documentation for EI determinations made after
                                  February 1999 (when the guidance was issued), or after FY
                                  1999, respectively. For those completed prior to the
                                  February 1999 guidance, EPA Headquarters officials are


                                             41                             Report No. 2000-P-0028
                   requiring the EI evaluation forms to be completed upon
                   reevaluation of the facilities’ status.

                   Since RCRIS does not indicate when EI determinations are
                   entered into the system, and even though regional officials
                   say they are able to monitor progress made by state
                   officials, EPA CA officials may need to establish additional
                   procedures to ensure that the Agency is able to verify when
                   EI determinations are accomplished so that it can effectively
                   monitor progress toward the GPRA goal. Unless these
                   procedures are in place, Agency officials may not be able to
                   properly account for the number of EI accomplished. In
                   addition, Congress may not be able to rely on the EI data in
                   EPA’s annual performance reports. Because EPA is
                   ultimately responsible for the data it presents in its annual
                   performance report to Congress, EPA officials may want to
                   perform periodic data quality reviews of the EI
                   documentation that states provide.

RECOMMENDATIONS	   We recommend that the Assistant Administrator for Solid
                   Waste and Emergency Response:

                   5-1    Emphasize the importance of entering each EI
                          accomplishment date in the RCRA information
                          system concurrent with the date the EI
                          documentation is signed by the approving official.
                          Also, add a code in the RCRA information system to
                          track the dates EI accomplishments are entered into
                          the system.

                   5-2    Establish additional procedures to periodically
                          reconcile EI accomplishments during meetings with
                          state officials or at least annually to verify the
                          accuracy of EI determinations in RCRIS.
                          Additionally, ensure that all EI changes are
                          documented on EI forms and are reflected in the
                          RCRA information system on at least an annual
                          basis.

                   5-3    Reemphasize the need that all EI accomplishments
                          entered in the RCRA information system should be
                          supported by documentation.



                             42                            Report No. 2000-P-0028
43   Report No. 2000-P-0028
THIS   PAGE   INTENTIONALLY   LEFT     BLANK            





                    44               Report No. 2000-P-0028
                                                                                    APPENDIX 1
                        Scope, Methodology, and Prior Audit Coverage



SCOPE AND METHODOLOGY

We conducted this review from August 1999 to May 2000. To accomplish our objectives, we
conducted field work in the Headquarters Offices of Solid Waste and Emergency Response and
Enforcement and Compliance Assurance, and in Regions 4, 5, and 6. We reviewed various
background documentation and attended the CA Workshop training that instructs regional and
state officials how to accomplish and document the EI.

We reviewed OSWER's 1999 Report on Management Controls required by the Federal
Managers’ Financial Integrity Act (FMFIA). The report identified concerns that OSWER officials
had with: the RCRA Listings Program, organizational assessment, GPRA Implementation, human
resources management, financial resources management, data information management,
contract/assistance agreement resources management and OIG audits. The report also discusses
GAO and OIG proposed material weaknesses candidates, including RCRA CA. GAO proposed
that the Agency declare CA a material weakness under the Agency management integrity process.
Based on substantial action already taken to address the speed of CA cleanups, including the
RCRA reforms, OSWER declared CA as an Agency-level weakness rather than a material
weakness.

We also reviewed OECA’s FY 1999 Integrity Act Annual Assurance Letter to comply with
FMFIA. The assurance letter identified a weakness in the area of environmental data quality in its
information systems, including RCRIS. To address this weakness, OECA planned to evaluate
RCRIS and 4 other information systems it uses. Along with other efforts, OECA also conducted
a baseline data quality audit of RCRIS and plans to continue efforts to address this weakness.

We considered the overall implementation of GPRA for the CA program. The examination of the
overall implementation included: the GPRA goal of restoration of sites, the EI, obstacles to a
successful achievement of the EI, source documentation, RCRIS data accuracy for the EI,
resources allocated to achieve the EI, and management oversight.

OSWER CA officials provided us with the universe of 1,712 (as of April, 1999) high priority
facilities against which the progress toward the GPRA goal of restoring sites will be measured.
From this RCRIS universe, we selected Regions 4, 5, and 6 primarily based on the total number of
high priority baseline facilities, when compared with the total number of baseline facilities in the
other regions, and based on whether or not states were authorized for CA in each region.
However, we did not verify the accuracy of the baseline, nor did we visit facilities to confirm how
the EI determinations were made.



                                                45                            Report No. 2000-P-0028
                                                                                  APPENDIX 1
                       Scope, Methodology, and Prior Audit Coverage


Because we believed most of the EI would be accomplished at facilities where an RFI was
imposed and we wanted to increase our chances of selecting facilities where EI were
accomplished, we divided the GPRA universe in each region into two universes: RFI imposed
and no RFI imposed. We selected random samples from each of the two universes in each region.
After learning from our review in Region 4 that only the most recent permits or orders may
contain EI language, we also selected a judgmental sample of facilities in Regions 5 and 6, where
an RFI was imposed after the February 1999 EI guidance was issued, to determine whether any
orders or permits issued after this date contained language which required the EI to be
accomplished.

To accomplish objective 1 (Could the overall implementation of GPRA for the CA program be
improved?), we interviewed regional and headquarters officials. We also reviewed the GPRA
goal of restoration to determine how the EI supported the achievement of the goal.

To accomplish objective 2 (Have the high priority facilities initiated CA or have states or EPA
compelled CA in permits, orders, etc., and are these actions effective?), we analyzed the
information provided by OSWER. We searched the data to determine whether an RFI was
imposed, whether or not each site was in a state that was authorized for CA, and whether at least
one EI had been accomplished. We conducted file reviews and obtained source EI documentation
for our sampled facilities. We also conducted a data quality review of the RFI imposed for the
purposes of supporting our sampling methodology. We interviewed regional and state officials to
discuss their plans for accomplishing the GPRA goals by 2005, including the innovative steps they
were taking to accomplish the EI. We also obtained corroborating documentation, including
BYPs, and analyzed the EI documentation to determine what environmental effect occurred as a
result of the achievement of the EI.

To accomplish objective 3 (Do states encounter obstacles to effective CA? Are those obstacles
different from EPA’s?), we interviewed EPA officials and state officials from Georgia, Ohio, and
Texas.

To accomplish objective 4 (Have states or EPA planned for sufficient resources to achieve the
GPRA goal of 2005 and the intermediate goals?), we conducted fieldwork in Regions 4, 5, and 6,
which included interviews of regional and state officials. We also obtained limited resource
information from regions and states. We conducted a limited analysis of grant allocation
information, including the grant allocation formula and related data.

To accomplish objective 5 (Is EPA receiving timely and accurate information necessary for
monitoring progress made toward the GPRA goal?), we spoke to a key headquarters official
about whether the dates EI accomplishments were entered in RCRIS were available. We also
interviewed state officials about how they communicate progress to EPA and how they make sure

                                               46                           Report No. 2000-P-0028
                                                                                  APPENDIX 1
                       Scope, Methodology, and Prior Audit Coverage


the data they provide EPA in RCRIS is accurate. We also analyzed the EI documentation to
determine whether it was accurately reflected in RCRIS.

PRIOR AUDIT COVERAGE

No other audits regarding the CA program's implementation of GPRA have been performed.
However, some reviews of related subjects have been performed. On May 2, 2000, GAO
delivered testimony before the Senate Committee on Environment and Public Works on the
“Collaborative EPA-State Effort Needed to Improve [the] Performance Partnership System.” In
the testimony, GAO discussed long-standing issues that affect the EPA-State working
relationship. First, EPA regions are inconsistent in their oversight of states. Second, EPA
sometimes micro manages programs. Third, EPA does not provide sufficient technical support
for the increasingly complex requirements of the states' programs. Finally, EPA often does not
adequately consult the states before making key decisions affecting them. To address these
concerns, EPA developed performance partnership agreements to increase flexibility, enhance
accountability and reduce federal oversight. However, GAO found limited participation with the
performance partnership agreements, and has found that reduced federal oversight has only been
realized to a limited degree. GAO also found that EPA and states have agreed on improved core
performance measures and have also improved the ability to try innovative or unique projects. In
response to the testimony, EPA and the Environmental Council of States agreed to conduct a
joint evaluation.

GAO issued an audit report in October 1997, entitled, "Progress Under the Corrective Action
Program Is Limited, but New Initiatives May Accelerate Cleanups" (GAO/RCED-98-3). This
report evaluated the cleanup completions of the CA workload in the RCRA program. This report
concluded that, “the step by step process for cleanup is drawn out and cumbersome, and the cost
of implementing it discourages companies from initiating more cleanups. Protracted
disagreements among EPA, the states, and affected companies over the cleanup standards to be
met and the methods used to meet them have also delayed cleanups. Both of these factors can
contribute to the economic disincentives that companies face in performing cleanups.
Furthermore, these two problems are exacerbated by the limited resources EPA and the states
have for implementing the [Corrective Action] program." GAO generally recommended that EPA
reform the program to make it more streamlined and consistent nationwide. EPA generally
agreed to these recommendations.

In September, 1996, EPA OIG issued a report entitled, "RCRA Corrective Action Oversight"
(Report Number E1DSB6-11-0006-6300036), which stated that tiered (a type of limited)
oversight was being used by the regions. However, formal decisions on tiered oversight were not
documented as was required in the cases reviewed. The report also summarized some of the
factors program managers consider when deciding on the level of oversight to be applied,

                                               47                           Report No. 2000-P-0028
                                                                                     APPENDIX 1
                        Scope, Methodology, and Prior Audit Coverage


including the NCAPS ranking a facility had or the activity being conducted at the site. It also
summarized some of the problems and contradictions with the theory of tiered oversight. No
response to the report was required of the Agency.

According to an October 1997 GAO report, under the requirements of the CA program, the
nearly 3,700 non-federal facilities that treat, store, or dispose of hazardous waste in the United
States could spend about $16 billion to clean up their properties contaminated by hazardous
substances. The CA program attempts to minimize the federal cleanup burden by having current
operating facilities clean up their hazardous waste contamination. The companies that perform
cleanups under the program include chemical manufacturers and waste disposal companies. Past
and present activities at RCRA facilities have sometimes resulted in releases of hazardous
substances into soil, groundwater, surface water, and air. Although the CA program has been in
effect since 1984, concerns have been raised that companies are not cleaning up their facilities
quickly enough and that properties remain contaminated, posing risks to public health and the
environment.




                                                48                            Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     49                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     50                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     51                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     52                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     53                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     54                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     55                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     56                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     57                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     58                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     59                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     60                          Report No. 2000-P-0028
                                                       APPENDIX 2
Examples of Acceptable Reference and Rationale




                     61                          Report No. 2000-P-0028
THIS   PAGE   INTENTIONALLY   LEFT   BLANK





                    62                    Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      63                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      64                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      65                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      66                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      67                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      68                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      69                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      70                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      71                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      72                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      73                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      74                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      75                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      76                           Report No. 2000-P-0028
                                                         APPENDIX 3
Examples of Unacceptable Reference and Rationale




                      77                           Report No. 2000-P-0028
THIS   PAGE   INTENTIONALLY   LEFT   BLANK





                    78                    Report No. 2000-P-0028
                                                                            APPENDIX 4
                  Accuracy of Region 4 Positive EI Determinations
                             (Sampled Facilities Only)

  EI    Facility ID          Accurate             Invalid      Inaccurate    EI Not in
 Code   Number            (Documentation       Determination     Date in     RCRIS as
                          Matches RCRIS)                         RCRIS       of January
                                                                                2000

CA750   FLD980799050              X
                              R 9/30/98
                              D 9/30/98

CA725   FLD980799050              X
                              R 9/30/98
                              D 9/30/98

CA750   GAD67560870                                                X
                                                               R 9/30/99
                                                               D 10/4/99

CA725   GAD67560870                                  X
                                                 Not Signed

CA750   GAD010103232                                               X
                                                               R 9/22/97
                                                               D 7/16/97

CA725   GAD010103232                                              X
                                                               R 9/22/97
                                                               D 7/16/97


CA750   GAD003326477                                                             X

CA750   GAR000000901              X
                              R 9/30/99
                              D 9/30/99


CA725   GAD981224942                                               X
                                                               R 4/11/95
                                                               D 4/11/96


CA725   GAD041007063              X
                              R 9/30/97
                              D 9/30/97

CA725   GAD093380814                                                             X



                                          79                        Report No. 2000-P-0028
                                                                             APPENDIX 4
                  Accuracy of Region 4 Positive EI Determinations
                             (Sampled Facilities Only)

  EI    Facility ID            Accurate            Invalid      Inaccurate    EI Not in
 Code   Number              (Documentation      Determination     Date in     RCRIS as
                            Matches RCRIS)                        RCRIS       of January
                                                                                 2000

CA725   No ID on EI                                                 X
        Documentation for                                       R 4/24/96
        Chemical                                                D 8/24/96
        Specialties - RFI
        date did match.

CA750   No ID on EI                                                 X
        Documentation for                                       R 4/24/96
        Chemical                                                D 8/24/96
        Specialties - RFI
        date did match.

CA725   ALD031490501                                                X
                                                                R 8/19/99
                                                                D 8/30/99

CA750   ALD031490501                                                X
                                                                R 8/19/99
                                                                D 8/30/99

CA725   ALD079127635               X
                               R 9/30/99
                               D 9/30/99

CA750   ALD079127635               X
                               R 9/30/99
                               D 9/30/99

CA750   ALD004019048               X
                               R 9/20/99
                               D 9/20/99

CA725   NCD981476955                                                X
                                                                R 9/24/98
                                                                D 10/1/98

CA750   NCD981476955                                                X
                                                                R 9/24/98
                                                                D 10/1/98

CA750   SCD044442333                                  X
                                                  Not Signed


                                           80                        Report No. 2000-P-0028
                                                                              APPENDIX 4
                    Accuracy of Region 4 Positive EI Determinations
                               (Sampled Facilities Only)

  EI      Facility ID          Accurate             Invalid      Inaccurate    EI Not in
 Code     Number            (Documentation       Determination     Date in     RCRIS as
                            Matches RCRIS)                         RCRIS       of January
                                                                                  2000

CA725     TND003337292                                 X
                                                   Not Signed

CA750     TND003337292                                 X
                                                   Not Signed

CA750     TND047025589                               X-*

CA750     TND047025589                               X-*

CA725     TND003095635              X
                                R 9/11/96
                                D 9/11/96

CA750     KYD062951801                                               X
                                                                 R 7/17/96
                                                                 D 8/19/96

CA725     KYD062951801                                               X
                                                                 R 7/17/96
                                                                 D 8/19/96

CA750 /   KYD980600043                                               X
NR                                                               R 8/24/98
                                                                 D 8/26/98


CA725     KYD980600043                                               X
                                                                 R 8/24/98
                                                                 D 8/26/98

CA750     KYD006373922             X
                                R 6/7/96
                                D 6/7/96


CA750     MSD990866329             X
                                R 7/2/97
                                D 7/2/97




                                            81                        Report No. 2000-P-0028
                                                                                 APPENDIX 4
                    Accuracy of Region 4 Positive EI Determinations
                               (Sampled Facilities Only)

  EI      Facility ID           Accurate             Invalid        Inaccurate    EI Not in
 Code     Number             (Documentation       Determination       Date in     RCRIS as
                             Matches RCRIS)                           RCRIS       of January
                                                                                     2000

CA750 /   MSD065462517               X
NR                               R 9/30/97
                                 D 9/30/97

CA725 /   MSD065462517               X
NC                               R 9/30/97
                                 D 9/30/97

CA725     FLD004104105                                                   X
                                                                     R 8/16/96
                                                                     D 8/14/96

CA725     FLD083200998               X
                                 R 8/24/96
                                 D 8/24/96

CA725     FLD061993606                                  X
                                                    Not Signed
                                                     or Dated

CA725     FL6570024582               X
                                 R 9/16/96
                                 D 9/16/96

CA725     FLD004088258               X
                                 R 9/30/97
                                 D 9/30/97
                              R = RCRIS as of January 2000

                                    D = EI document date

                                      NR = No releases

                          NC = No control measures necessary

  * The January 2000 database indicated that an EI was accomplished on 9/30/99, but the
   supporting EI document is still in draft form as of 10/12/99 and not signed on 9/30/99.




                                             82                           Report No. 2000-P-0028
                                                                               APPENDIX 5
                   Accuracy of Region 5 Positive EI Determinations
                                (Sampled Sites Only)


  EI      Facility ID     Accurate           Invalid             Inaccurate   EI Not in
 Code     Number          (Documentation     Determination       Date in      RCRIS as
                          Matches                                RCRIS        of January
                          RCRIS)                                              2000

CA750 /   OHD004461711                                X
NR                                              Valid Code Not
                                                   Selected

CA725     OHD004461711            X
                              R 5/13/99
                              D 5/13/99

CA750     OHD042157644                                                X
                                                                  R 9/30/98
                                                                  D 3/18/99

CA725     OHD042157644                                                X
                                                                  R 9/30/98
                                                                  D 3/18/99

CA750     OHD981529688                                                X
                                                                  R 1/6/99
                                                                  D 3/18/99

CA725     OHD981529688                                                X
                                                                  R 1/6/99
                                                                  D 3/18/99

CA750     OHD004282158                                                              X
                                                                                 D 3/5/99

CA725     OHD004282158           X
                              R 3/5/99
                              D 3/5/99

CA750     OHD052859170                                                              X
                                                                                 D 3/5/99

CA725     OHD052859170           X
                              R 3/5/99
                              D 3/5/99

CA750     OHD068111327                                                              X
                                                                                 D 3/8/99



                                           83                             Report No. 2000-P-0028
                                                                         APPENDIX 5
                 Accuracy of Region 5 Positive EI Determinations
                              (Sampled Sites Only)

  EI    Facility ID     Accurate           Invalid         Inaccurate   EI Not in
 Code   Number          (Documentation     Determination   Date in      RCRIS as
                        Matches                            RCRIS        of January
                        RCRIS)                                          2000

CA725   OHD068111327                                           X
                                                            R 3/5/99
                                                            D 3/8/99

CA750   IND072040348            X
                            R 5/12/99
                            D 5/12/99

CA725   IND072040348            X
                            R 5/11/99
                            D 5/11/99

CA725   IND984894527           X
                           R 11/12/99
                           D 11/12/99

CA725   ILD006278170            X
                            R 9/23/99
                            D 9/23/99


CA750   ILD005178975            X
                            R 9/30/99
                            D 9/30/99



                          R = RCRIS as of January 2000

                              D = EI document date

                                NR = No releases





                                         84                        Report No. 2000-P-0028
                                                                          APPENDIX 6
                 Accuracy of Region 6 Positive EI Determinations
                              (Sampled Sites Only)


  EI      Facility ID   Accurate           Invalid         Inaccurate   EI Not in
 Code      Number       (Documentation     Determination   Date in      RCRIS as
                        Matches                            RCRIS        of January
                        RCRIS)                                          2000

CA750   TXD008113441                                            X
                                                            R 7/28/98
                                                            D 11/8/99

CA725   TXD008113441                                            X
                                                            R 7/28/98
                                                            D 11/8/99

CA750   TXD007333800                                            X
                                                            R 9/13/96
                                                            D 11/9/99

CA725   TXD007333800                                            X
                                                            R 9/13/96
                                                            D 11/9/99



                          R = RCRIS as of January 2000
                              D = EI document date




                                         85                         Report No. 2000-P-0028
T H I S   P A G E   I N T E N T I O N A L L Y   L E F T       B L A N K 





                                86                        Report No. 2000-P-0028
                                                                                     APPENDIX 7

                                        Agency Response


                                      September 28, 2000



MEMORANDUM

SUBJECT: OIG Draft Report, “RCRA Corrective Action Focuses on Interim Results -
         Improvements In Documentation and Future Focus on Final Cleanup Needed”

FROM:       Timothy Fields, Jr. /s/
            Assistant Administrator
              for Solid Waste and Emergency Response

TO: 	       John T. Walsh
            Divisional Inspector General for Audit
            Office of Inspector General

        The Office of Solid Waste and Emergency Response (OSWER) has reviewed the subject
Office of Inspector General (OIG) report and the recommendations contained therein. The
purpose of this memorandum is to provide you with our feedback on the report. In general, we
find that the report accurately reflects the RCRA Corrective Action Program’s current strategy of
focusing short-term implementation on two environmental indicators while still emphasizing the
ultimate goal of achieving final cleanups. Furthermore, we agree with all of the report’s
recommendations, including those concerning documentation of environmental indicators and the
need to develop a “final cleanup” indicator with an ecological component.

        OSWER would like to convey our appreciation for the significant effort the OIG staff put
into gathering information, developing findings and providing recommendations. Additionally, we
sincerely appreciate the time the OIG staff spent with us discussing early drafts and the significant
changes they incorporated based on our verbal suggestions. We have no additional comments on
this draft report, and we look forward to receiving the final report.

      If you have any questions regarding this response, please contact Robert Hall at (703)
308-8432.

cc: Anne Andrews
    Robert Hall
    Steve Heare
    Tina Lovingood


                                                 87                            Report No. 2000-P-0028
THIS   PAGE   INTENTIONALLY   LEFT    BLANK





                   88            Report No. 2000-P-0028
                                                                               APPENDIX 8

                                      Report Distribution

Inspector General

Deputy Assistant Inspector General for Internal Audits

Headquarters Audit Liaison (Dick Hall)

Headquarters Audit Liaison (Carol Jacobson)

Divisional Inspector Generals for Audit ( and sub-offices)

Assistant Administrator for Solid Waste and Emergency Response

Assistant Administrator for Enforcement and Compliance Assurance

Comptroller

Agency Follow-up Official

Agency Follow-up Coordinator

OECA Followup Coordinator (Greg Marion)

OSWER Followup Coordinator (Johnsie Webster)

Region 4 Audit Coordinator (Linda Barret)

Region 5 Audit Coordinator (Howard Levin)

Region 5 Audit Coordinator (Eric Levy)

Region 6 Audit Coordinator (Diane Taheri)

Associate Administrator for Congressional and Intergovernmental Relations

Associate Administrator for Communications, Education, and Media Relations

Associate Administrator for Regional Operations


Steve Heare, OSWER (5303W)

Bob Hall, OSWER (5303W)

Henry Schuver, OSWER (5303W)

Linda Boornazian, OECA (2273A)

Paul Connor, OECA (2273A)

Neilima Senjalia, OECA (2273A)

Peter Neves, OECA (2273A)

Narindar Kumar, Region 4

Jeffrey Pallas, Region 4

Anna Torgrimson, Region 4

Gerald Phillips, Region 5

Hak Cho, Region 5

Karl Bremer, Region 5

George Hamper, Region 5

Stephen Gilrein, Region 6

Mark Potts, Region 6 

William (Bill) Gallagher, Region 6

David Neleigh, Region 6

Laurie King, Region 6

Cathy Gilmore, Region 6



                                              89                         Report No. 2000-P-0028
Report No. 2000-P-0028
